<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                

                         [H.A.S.C. No. 115-112]

                      AVIATION MISHAP PREVENTION--

                           A PROGRESS REPORT

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 21, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-385                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Gayler, MG William K., USA, Commanding General, U.S. Army 
  Aviation Center of Excellence, U.S. Army.......................     6
Kelley, RADM Roy J., USN, Commander, Naval Air Force Atlantic, 
  U.S. Navy......................................................     7
Nowland, Lt Gen Mark C., USAF, Deputy Chief of Staff for 
  Operations, U.S. Air Force.....................................     3
Rudder, LtGen Steven R., USMC, Deputy Commandant for Aviation, 
  U.S. Marine Corps..............................................     4

                               
                               APPENDIX

Prepared Statements:

    Gayler, MG William K.........................................    44
    Kelley, RADM Roy J...........................................    53
    Nowland, Lt Gen Mark C.......................................    26
    Rudder, LtGen Steven R.......................................    37
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
             
             
             AVIATION MISHAP PREVENTION--A PROGRESS REPORT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, June 21, 2018.
    The subcommittee met, pursuant to call, at 4:21 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good afternoon. The Readiness Subcommittee of 
the House Armed Services Committee will come to order.
    I welcome each of you to this hearing of the Readiness 
Subcommittee on ``Aviation Mishap Prevention--a Progress 
Report.'' Today, the subcommittee will hear from each of the 
services on the efforts of each to reduce the number of 
aviation mishaps, focusing on any preliminary conclusions on 
common causal factors to these mishaps and any changes made to 
improve safety and decrease mishaps.
    We owe it our service men and women to eliminate 
preventable accidents and continue to strive to provide the 
resources necessary for the most capable and most trained 
military in the world. Readiness is not just having enough 
spare parts on the shelves or enough aircraft to fly; readiness 
is also training service members to be proficient in their 
jobs.
    As witnesses testified last week during the Tactical Air 
and Land Forces Subcommittee hearing on the Department of 
Defense aviation mishap review and oversight process, most 
mishaps are due to human error. Although human error may be a 
primary causal factor in most aviation accidents, there are 
ways to reduce human error.
    During your testimony, please ensure you highlight how your 
service is taking actions to reduce human error and prevent 
today's accidents while we all work to ensure that service 
members have the time, tools, and training to be successful and 
prevent future aviation mishaps.
    Before I introduce the witnesses, I turn to the 
distinguished ranking member of the Readiness Subcommittee, the 
gentlelady from the territory of Guam, Congresswoman Madeleine 
Bordallo, for her opening comments.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. And I 
commend you for organizing this hearing on such an important 
and timely topic. And thank you as well to all of our witnesses 
this afternoon for being here with the committee.
    The military's aviation mishap trends are troubling to me, 
and I strongly support Ranking Member Adam Smith's proposal for 
an independent national commission on military aviation safety. 
The commission would study accident rates, compare them to 
historic averages, and determine what steps can be taken to 
improve military aviation safety, an effort I had hoped the 
Department would lead.
    In addition to that effort, I hope that each of you can 
share with the committee today your plans to improve aviation 
safety within your services in parallel with our efforts to 
establish this commission.
    Each service has suffered at least one mishap in 2018 
resulting in the loss of life. Yet aside from 1-day safety 
standdowns after a mishap, I have not seen other specific 
decisive actions taken to address recent mishaps. Moreover, I 
have doubts about the effectiveness of a 1-day standdown.
    Recent mishaps have been attributed to an aging fleet, lack 
of proper sustainment and maintenance, and in some cases, even 
an aircrew error. I understand that we cannot discuss the 
specifics of the recent mishaps until safety investigations are 
completed. However, I would ask that each of you outline your 
initial analysis of determining factors for overall trends, as 
well as your recommended solutions with your service and across 
the joint force.
    Regardless of the reason for these mishaps, the bottom line 
is that there is no room in our current aviation readiness 
status to suffer personnel or material losses that should be 
avoidable. I think it appropriate during our discussion today 
that all the witnesses and members in the room remember the 
soldiers, the sailors, the Marines, and the airmen that we have 
lost in noncombat-related aviation accidents, and remain 
cognizant of the role that both Congress and DOD [Department of 
Defense] have played in setting conditions leading up to those 
accidents.
    The military aviators of our Nation are counting on us to 
get it right and provide them with the tools that they need to 
successfully and safely employ their aircraft at the highest 
levels of performance.
    And with that, I thank you, Mr. Chairman, and I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    We are pleased to recognize our witnesses today. And I want 
to thank them for taking the time to be with us. We look 
forward to your update on how your service is preventing 
aviation mishaps.
    We have with us today Lieutenant General Chris Nowland, the 
Deputy Chief of Staff of Operations. We have Lieutenant General 
Steven Rudder, the Marine Corps Deputy Commandant for Aviation; 
Major General William Gayler, the Commanding General, U.S. Army 
Aviation Center of Excellence; and Rear Admiral Roy Kelley, 
Commander, Naval Air Force Atlantic.
    And, Lieutenant General Nowland, we begin with you with 
your opening comments.

  STATEMENT OF LT GEN MARK C. NOWLAND, USAF, DEPUTY CHIEF OF 
              STAFF FOR OPERATIONS, U.S. AIR FORCE

    General Nowland. Chairman Wilson, Ranking Member Bordallo, 
members of the subcommittee, thank you for the opportunity to 
speak to you today on this very important topic of aviation 
mishap prevention.
    As you know, safety is and will remain a top priority of 
our service. We totally agree with you, ma'am. We cannot afford 
to lose a single airman or weapons capability to a mishap that 
could have been prevented. We understand that risk is always 
present in our profession, but our goal is to mitigate risk to 
the greatest extent possible.
    Heartbreakingly, the Air Force has lost 18 airmen in fiscal 
year 2018. In response to these tragic events, the Chief of 
Staff of the Air Force, General Goldfein, directed all wing 
commanders and operational maintenance leaders to conduct a 1-
day operational safety review. During this day, commanders' 
primary focus was to talk to their airmen, assess processes, 
look for areas of improvement, and to determine how to work 
together to prevent future mishaps.
    Not surprisingly, OPSTEMPO [operations tempo] and time to 
train was highlighted as an issue. This is in line with what we 
have found across the Air Force.
    Last year, we used feedback to help address safety issues 
with our remotely piloted aircraft [RPA] career field. Remotely 
piloted aircraft squadrons execute 24/7/365 combat operations, 
which makes it difficult to train. This impacted the readiness 
of our forces.
    Based on the feedback from our RPA airmen, we put together 
a cultural process improvement program to address their 
concerns. This resulted in higher manning levels, pilots' and 
maintainers' time to train, increased readiness, and we 
completed a transition to MQ-9s and a significant decrease in 
RPA mishaps.
    Also, our mobility forces have had recent success. U.S. 
Transportation Command worked with Air Mobility Command to 
reduce requirements and to provide an aircraft ceiling for 
daily operations. This reduction freed up C-17 and C-5 
aircraft, allowing time for training. Our pilots and 
maintainers have gained proficiency, our mission-capable rates 
increased, and we provided valuable resource to our airmen: 
time.
    Time to train is essential for both safety and readiness. 
Sometimes you always don't get time, things happen. Two weeks 
ago, we discovered an issue with the B-1 ejection seats. Our 
commanders sprang into action, activating the entire Air Force 
team to protect our aircrew and provide combat capability. The 
team did hard analysis and engineering to find a solution to 
the ejection seat issue. I am glad to announce the team's 
efforts paid off. The B-1 started flying again on Tuesday. This 
is an example of how the Air Force team responded to an 
increased readiness and lethality of a very complex fleet: The 
fleet that is new and old, manned and unmanned.
    Another challenge in the category of things don't stay 
fixed is the T-6. We had flown the T-6 for 2.1 million hours 
before we had an unexpected increase in unknown physiological 
events. Once again, the entire Air Force team, along with the 
Navy and NASA [National Aeronautics and Space Administration], 
sprang into action to identify ways to mitigate the risk so we 
could continue to safely fly crucial training sorties while 
simultaneously continuing to investigate the root cause.
    On a personal note, flying aircraft is unforgiving and 
dangerous. As you know, earlier this year, we lost a 
Thunderbird pilot, Major Stephen Del Bagno. He graduated from 
undergraduate pilot training at Vance when I was the wing 
commander. He was the first Vance undergraduate pilot training 
pilot to get an F-22. ``Cajun,'' his call sign, was really, 
really good. Yet on 4 April, flying low to the ground on a 
practice demonstration as a Thunderbird, the thing he loved to 
do and wanted to do, he lost his life. We know this impacted 
his mom, dad, family, squadron mates, and people that knew 
Cajun. Real people miss him because he was an outstanding 
leader, wingman, and person.
    Aviation is inherently dangerous. The Thunderbirds 
completed their airshow 40 days later on 19 May. We 
investigate, we mitigate risk, but we will never quit. But we 
are committed to doing our best to mitigate the risk to our 
pilots and our aircrew.
    I look forward to your questions.
    [The prepared statement of General Nowland can be found in 
the Appendix on page 26.]
    Mr. Wilson. Thank you very much, Lieutenant General 
Nowland.
    We now proceed to Lieutenant General Rudder.

 STATEMENT OF LTGEN STEVEN R. RUDDER, USMC, DEPUTY COMMANDANT 
                FOR AVIATION, U.S. MARINE CORPS

    General Rudder. Chairman Wilson, Ranking Member Bordallo, 
distinguished members of the House Armed Services Subcommittee 
on Readiness, and other distinguished members, I appreciate the 
opportunity to testify on the current state of Marine Corps 
aviation readiness and safety.
    As you are aware, the Marine Corps title 10 responsibility 
is to be the Nation's expeditionary force in readiness. Your 
Marines continue to train hard for a constant deployment cycle. 
We hold them to high standards, and we deploy these Marines 
around the world at a moment's notice. I am proud of these 
Marines, as I know you are as well.
    Fiscal year 2017 was a tough year for Marine aviation in 
terms of Class A mishaps. In 2017, 20 percent of our mishaps 
occurred at sea, 40 percent in an expeditionary environment, 
and 60 percent were deployed. Despite the fact that we are well 
within our normal rates over 10-year average, 2017 was not 
good, and it has our full attention.
    I am in direct coordination with the gentlemen to my left 
and right on a regular basis, sharing ideas and trying to 
capture best practices. The Marine Corps uses operational risk 
management, a system originally adopted by the Army. We are in 
the process of transitioning to the Air Force aviation safety 
awareness program. The Navy and Marine Corps are also 
transitioning to a new risk management information system, 
which replaced the current mishap reporting system, which will 
allow us to broadly share more information about individual 
mishaps. We also sit together on a joint services safety 
council.
    Marine aviation is somewhat unique. We have rotary wing, we 
have tilt rotor, we have TACAIR [tactical air], and we fly 
transport. Within those communities, we have seen the greatest 
percentage increase in Class C. And to that, we have seen a lot 
of towing mishaps, young Marines trying to do the right things, 
towing very expensive airplanes into things. So we have 
revamped our whole towing policy. Most of these happened during 
night crew which, to most, is when most of the work is done for 
the next day's schedule. And we have increased a level of 
expertise and NCO [noncommissioned officer] leadership to our 
night crews.
    We had 12 Class A's total last year, 2 of them were ground 
mishaps. Two Marines were injured and an F-18 damaged when 
flammable material in a drip pan caught fire. And in a separate 
unrelated incident, an aircraft maintainer doing maintenance 
when the lightning alarms went off, the squadron was trying to 
get everybody off the flight line in a timely manner, he was 
struck by lightning and killed.
    Out of the 10 class A occurred last year across the full 
spectrum, not all of them resulted in aircrew fatalities, but 
all had some kind of corrective action. Some of these are still 
investigation, so the information I could provide is limited. 
But to give you an idea of some of the corrective actions we 
took last year: Our KC-130, our C-130 Tango tragic accident 
last year saw the loss of 15 Marines and a corpsman. We hadn't 
had a C-130 crash in over a decade. One squadron, only 12 
airplanes, we downed--in concert with the Navy, we downed that 
fleet. We downed that fleet over the abundance of caution, not 
really knowing what the cause was, but as we do with many of 
these, we don't know what the cause is. We downed a fleet and 
we didn't get them flying again until we replaced all the props 
in all the airplanes.
    We also had an MV-22 strike the back of an LPD [amphibious 
transport dock] off the coast of Australia. Not knowing exactly 
what the dynamics were with that particular mishap, we went 
ahead and changed the flight procedures and policies of how we 
approached the back of a ship. We reduced the maximum allowable 
weight allowance for an aircraft approaching the back of the 
ship. We changed and increased the required wind envelope for 
that aircraft approaching the ship at the weight, giving a 
greater power margin for all our aviators around the world 
approaching that ship.
    We also had an MV-22 crash in reduced visibility landing 
environment in an undisclosed location in a CENTCOM [U.S. 
Central Command] theater. The crew was perfectly legal to fly 
that mission, as per all our publications. But for that 
environment, we took the Air Force model of what AFSOC [Air 
Force Special Operations Command] does and increased the 
proficiency level on how many reduced visibility landings you 
are supposed to do into the dirt before you are allowed to do 
the mission.
    Another challenging aspect is you never know the one you 
prevent. While there is still no direct link between low 
readiness rates and causation to Class A mishap rates, we 
continue to believe a true metric of health in aviation is 
aircrew flight hours. Well-trained practiced aviators react to 
malfunctions in difficult circumstances far better and are much 
less likely to make mistakes, which in turn allow them to react 
in a fluid situation or unforeseen event.
    I will give you an example of some data, and it is from a 
certain event. Last year, one of our first Class A mishaps was 
a 53 Echo off the coast of Okinawa. This aircraft in the number 
two engine area caught fire. The fire began burning at a level 
which the aircraft became flyable, but in an extremis 
situation. The pilot, being calm, the crew fighting the fire in 
the back, that pilot had 30 hours in the past 30 days. She 
handled that emergency magnificently. She flew, she executed 
the procedures, she got it on the ground, got the crew out, and 
saved the crew. Unfortunately, the aircraft burned to the 
ground because of the fire, but she performed emergency 
procedures and was calm and cool throughout that. Thirty hours 
in 30 days, I think there is something to that.
    Each of our events are also thoroughly investigated in a 
learning attempt to prevent future mishaps, through initiatives 
like the new risk management information system and this 
aviation safety awareness program. Think of this program like a 
hotline for safety. So when a pilot comes back, he fills his 
system out after every flight, and the squadron flight safety 
officer reviews every flight. It is anonymous. So if he sees 
something that is unsafe, whether it is with the airfield or 
the aircraft or the crew, he can report that. We are just 
starting that now, and we are having success identifying some 
hazards.
    I say this knocking on wood and with somewhat optimism is 
that this year our readiness is up, our flight hours are up. We 
averaged 17.2 hours per pilot on an average, which is up from 
12 and 13 a few years ago. And as of fiscal year 2018 today, 
our mishap rate from a 3.99, one of our highest last year, is 
hovering as we go through at about 1.7 to 1.8. So we have had 
three Class A in-flight mishaps, two of those certainly we are 
still investigating.
    So I say this, Mr. Chairman, distinguished committee 
members, we appreciate your continued support. We are hard at 
work on this to increase our readiness and be ready to fight 
tonight.
    I look forward to your questions.
    [The prepared statement of General Rudder can be found in 
the Appendix on page 37.]
    Mr. Wilson. Thank you very much, Lieutenant General Rudder.
    And we now proceed to Major General Gayler.

  STATEMENT OF MG WILLIAM K. GAYLER, USA, COMMANDING GENERAL, 
       U.S. ARMY AVIATION CENTER OF EXCELLENCE, U.S. ARMY

    General Gayler. Chairman Wilson, Ranking Member Bordallo, 
other distinguished members of the Readiness Subcommittee, 
thank you for the opportunity to discuss Army aviation 
readiness and safety. It is a privilege to represent the Army 
leadership, the soldiers, the civilian professionals, and the 
men and women of Army aviation who steadfastly serve this 
Nation every single day.
    The first priority of Army aviation remains building and 
maintaining combat readiness, when successfully realized, 
enables safe aviation operations. And we define readiness as 
fully trained and proficient units, capably led, equipped with 
modern and capable platforms at the correct capacity.
    As a result, Army aviation mishap rates have steadily 
declined over the course of the last 35 years. In fact, mishap 
rates from fiscal year 2016 to today constitute the lowest 3-
year period in the past 35 years. But while our rates tend to 
trend in the right direction, the Army remains committed to 
further reduce mishaps.
    While aviation operations are inherently dangerous, combat-
ready units are better postured to mitigate that risk. However, 
we continue to balance competing factors that hamper the 
readiness of our units, meeting today's high demand for 
aviation, while simultaneously training for a large-scale 
combat operation, while modernizing our force together.
    Manning shortfalls and high OPTEMPO [operation tempo] 
continue to challenge our unit's ability to train for that 
large-scale contingency or combat operation, a mission set that 
has inherently higher risk.
    While I sincerely thank Congress for their continued 
support in the current omnibus and the benefits that it brings 
to Army aviation, years of fiscal uncertainty have jeopardized 
certain modernization investments. But regardless, we are 
continuing to work hard to maintain a competitive advantage 
over potential adversaries in the future.
    Despite these challenges, improvements made by Army 
aviation and the enterprise in terms of doctrine, leader 
development, training, and certain material solutions all work 
to improve readiness today and to better posture that force for 
tomorrow and any future potential conflict.
    Lastly, I can assure you that the United States Army still 
remains the most modern, well-trained aviation force of its 
kind in the world. And it provides an unparalleled advantage to 
our joint force. And our soldiers, our noncommissioned 
officers, our officers continue to serve with distinction 
around the globe.
    I want to thank each of you for your continued support to 
the men and women in uniform. And I appreciate the opportunity 
to testify before you today. And I sincerely look forward to 
your questions. Thank you.
    [The prepared statement of General Gayler can be found in 
the Appendix on page 44.]
    Mr. Wilson. And thank you very much, Major General Gayler.
    We now proceed to Rear Admiral Kelley.

  STATEMENT OF RADM ROY J. KELLEY, USN, COMMANDER, NAVAL AIR 
                   FORCE ATLANTIC, U.S. NAVY

    Admiral Kelley. Good afternoon, Chairman Wilson, Ranking 
Member Bordallo, distinguished members of the subcommittee. I 
am honored to be here representing SECNAV [Secretary of the 
Navy] and the Chief of Naval Operations [CNO].
    I would like to begin by thanking the subcommittee for 
authorizing funding that will allow us to improve our 
readiness. Consistent, predictable funding that we can execute 
on 1 October is absolutely required for us to be successful in 
these efforts.
    I am happy to report that we are meeting our deployment 
commitments with properly manned, trained, and equipped forces. 
I am incredibly proud of the success our aviation units are 
having in combat. We saw it in Operation Iraqi Freedom, 
Enduring Freedom, and now in Inherent Resolve.
    That being said, we are currently meeting our deployed 
requirements at the expense of those units that are left at 
home. As an example, today we have 55 Super Hornets that are 
non-mission capable due to maintenance, and 118 non-mission 
capable that are due to supply. Although we are addressing both 
issues, we are heavily focused on filling holes in existing 
aircraft and putting stock back on the shelves.
    In my meetings with our aircraft maintainers, I hear over 
and over, Admiral, if you get me the parts, we will provide you 
more mission-capable aircraft. We are teaming with the Naval 
Supply Systems Command to prioritize key parts that will get 
the highest number of aircraft mission capable as soon as 
possible.
    As the CNO recently testified, it took us a decade to get 
into this readiness decline; it will take us some time to get 
out. I ask for your patience with our recovery efforts as the 
process from the appropriation to contracting to delivery of 
parts is lengthy. On average, the lead time for a new supplier 
to deliver components to the fleet is ranging from 27 to 39 
months.
    That being said, we are seeing positive readiness results 
from our focused efforts on Super Hornets stationed at Naval 
Air Station Lemoore. Just last week, VFA-122, our fleet 
replacement squadron that trained Super Hornet pilots, reported 
25 mission-capable aircraft on their flight line. This is a 
very positive indicator, as the squadron was only able to 
produce six aircraft just 5 months ago.
    While a ready fleet is a lethal fleet, it must also be a 
safe fleet. Our goal is to have zero preventable mishaps. But 
for those that do occur, we rigorously investigate and 
disseminate the lessons learned to help prevent the mishap from 
happening again.
    The Navy's Class C mishap rates, those costing the 
government between $50 to $500,000 or nonfatal injuries, have 
doubled in recent years when compared to 2012. The Class C is 
the least costly damage to the government property of Class 
Alpha, Bravo, and Charlies. However, we recognize that any 
mishap has a negative impact to our readiness and can reverse 
much of our good efforts.
    We have determined from the Naval Safety Center and the 
Center for Naval Analyses, damage sustained during maintenance 
is the leading cause of these mishaps, with the analysis 
pointing to maintainers that are less experienced. The reduced 
experience is being addressed by doubling the length of orders 
for shore-based apprentice maintainers from 2 to 4 years, 
enabling them to gain additional experience and qualifications. 
Then using the new software program, Aviation Maintenance 
Experience Management tool, AMEX, we are better able to fully 
use our sailor skill sets by identifying specific 
qualifications each sailor has and matching them to the 
squadrons with the highest need.
    The Navy's effort to increase naval aviation readiness 
while reducing aviation mishaps is an ongoing process. We have 
to get this right. Our people are our greatest assets. Keeping 
them safe and ready to fight is our responsibility. We owe them 
nothing less.
    Thank you for your continued support for our sailors, 
civilians, and their families. I look forward to your 
questions.
    [The prepared statement of Admiral Kelley can be found in 
the Appendix on page 53.]
    Mr. Wilson. Thank you very much, Admiral Kelley.
    And as we begin, I will remind each subcommittee member 
that we will adhere to the 5-minute rule for questions to our 
witnesses. Our professional staff Margaret Dean will hold us to 
the clock, beginning with my questions, beginning with me right 
now.
    And as we begin, I would like to point out that our family 
especially appreciates your service. I am the son of an 
aviator, First Lieutenant Hugh Wilson, U.S. Army Air Corps. I 
am very grateful he served in the 14th Air Force, the Flying 
Tigers, and served in India and China.
    And then your professionalism is recognized. One time, I 
had the opportunity to visit with President Jiang Zemin at the 
presidential compound in Beijing. And when I was introduced as 
a Member of Congress, that was not very impressive. But 
somebody pointed out that Joe is the son of a Flying Tiger, he 
stopped the meeting and announced the American military is 
revered in China. And that is a reflection on your 
professionalism.
    The question for each of you: One factor highlighted in 
repeated testimony and briefings has been the impact of reduced 
flying hours, especially in the years following sequestration. 
How many hours of flight time training should pilots have 
versus how many hours they are receiving? Beginning with 
General Nowland.
    General Nowland. Thank you, sir. Positively, we are moving 
up on our flying hours. Our pilots right now across the force 
are averaging 18.66. We have a measurement called the Readiness 
Aircrew Program, which actually measures the sorties as well as 
the hours. And our goal is to close that so everyone is not--
what is called the Readiness Aircrew Program doesn't become the 
ceiling, but it becomes the floor. So you will fly above that.
    We are not there, but we are heading in that direction, so 
we are moving in the right direction, sir.
    Mr. Wilson. Thank you.
    General Rudder. When we started doing studies on this, 
really a few years ago, I think we kind of thought that the 
data was telling us at 15 hours per month puts you in a safety 
box. For our readiness levels across the Marine Corps, every 
airframe is a little bit different, but we are counting about 
16.9; 16.9 hours gets you to be T2 as we call it, combat-ready 
for deployment. So we try to attain that before everyone goes 
out the door. And every unit that goes--deploys overseas is 
combat-ready to that level.
    What we also found is that while we were doing this a few 
years ago, what we called the ready bench wasn't very ready. 
Through the readiness efforts, through what this committee and 
what the Senate and House has done, is we have been able to not 
only buy new airplanes, but also fix the ones we have.
    So I will give you just some examples of where we come on 
flight hours. And I think you can see this in some of our rates 
as those flight hours begin to take hold in the end of 2017 and 
into 2018. Back in 2016, we were at 13.5 hours per pilot. In 
2017, we averaged about 15.4. And today, we are averaging about 
17.2, just coming off a couple of 20- and 18-hour months. So 
that 16.9 hours is being met as a stand stay because of our 
readiness levels, and I think our pilots are beginning to show 
experience levels, and certainly our readiness levels are 
coming up.
    Mr. Wilson. Thank you very much.
    General Gayler. Sir, if we look at the Army aviation 
training strategy of what it requires to have collectively 
trained proficient units, it requires 14.5 hours per crew, per 
month. We are currently funded at 10.8 for an Active force and 
6.3 and 6.6 for the National Guard and Reserve forces, but that 
is sufficient for our current level.
    Part of readiness and a unit's ability to be ready is a 
function of several components. One is manning, another is 
equipping, another is training, but also time. Under the 
current manning and equipping levels, we are comfortable right 
now with where we are, but as we continue to train for a 
larger-scale combat operation, a future fight, not for 
something we are currently in, we do know that it will take 
additional flight hours per crew, per month to achieve that 
level of proficiency. But right now, we are certainly 
comfortable with our current operations, and there is no direct 
correlation that we can study and determine between the number 
of hours specifically and the accident rate, though we do try 
very hard.
    Thank you, sir.
    Mr. Wilson. Thank you, General.
    Admiral Kelley. Mr. Chairman, thank you for the question. 
And naval aviation goes through a training cycle, our Optimized 
Fleet Response Plan, which starts with building blocks. 
Basically, our flights would be limited in numbers early on in 
the training plan, and then on deployment, we would see high 
numbers.
    Our averages throughout naval aviation are 19 for the last 
10 years. So 19 hours per month, per pilot for each of the 
communities. This varies by community and, of course, 
throughout the workup period it would continue to increase. 
When we see units that are deployed, those numbers are 
typically in excess of 30 hours per month and that's because 
they are doing combat operations.
    We have no connection that shows us low flight hours or 
high flight hours are more impactful to risk. However, the 
variations between them we do see as high risk. So going from a 
low OPTEMPO to a high OPTEMPO is a higher risk to mishaps.
    Mr. Wilson. And thanks to each of you.
    We will proceed to Ranking Member Bordallo. And because of 
the importance of your testimony, we will also have a second 
round.
    Ms. Bordallo. Thank you very much, Mr. Chairman, since 
there is only two of us here.
    Gentlemen, my colleagues and I understand that military 
aviation is inherently dangerous. Your aviators fly faster, 
they fly lower and closer together than commercial aviation, 
while they push their aircraft to its limits around the world 
and in harm's way.
    We all understand that it is not possible to eliminate all 
accidents in your line of work. But I also feel strongly that 
we owe it to the aviators and their families to make sure that 
we are doing everything we can to ensure their safety in the 
air. Now, to that end, I asked this question in my opening 
remarks--or I didn't ask the question, but I told you what we 
had in mind, and it is in the NDAA [National Defense 
Authorization Act], a sponsored amendment by our ranking 
member.
    Can each of you please take a moment to offer your thoughts 
on how a national commission on military aviation safety would 
benefit your service?
    General Nowland.
    General Nowland. Yes, ma'am. Thanks for the question. We 
would believe that the safety commission could look at overall 
things. As we have found trends, we find op temper--operational 
tempo and time are key to both readiness and safety. There, we 
think that that study would help us highlight that the Air 
Force is too small for the mission set that we need to do. And 
I think it would highlight that we need the more manpower and 
to grow to accomplish a National Defense Strategy, to provide 
that time to train.
    Ms. Bordallo. Good. General Rudder.
    General Rudder. Yeah, I agree. One of the things that I 
think that commission would find, I think it would find some 
efficiencies in pilot production and pilot training. I think it 
would find some efficiencies in how we maintain aircraft as we 
begin to compare ourselves to other organizations around the 
world at how we do maintenance. But I also agree that it would 
also see OPSTEMPO as a driver.
    I would think also it would see maybe as a young force and 
the turnover that we have within our services that the training 
to get on step for the next deployment as a driver for some of 
the mistakes in the maintenance spaces.
    Ms. Bordallo. Thank you.
    Major General Gayler.
    General Gayler. Yes, ma'am. Thank you. I think we certainly 
all agree that any effort to improve the safety and safeguard 
the treasure of our Nation is certainly worth pursuing. I think 
it would have--I would recommend it would have to be fairly 
focused to determine causal factors that affect risk, to 
include manning, equipping, training. But I think we ought to 
also capitalize on some of the things we already do with the 
OSD [Office of the Secretary of Defense] oversight with our 
joint safety councils that meet and each of our own internal 
safety center capabilities. But we are certainly encouraged by 
any opportunity to help better protect our soldiers.
    Ms. Bordallo. Thank you.
    And Rear Admiral Kelley.
    Admiral Kelley. Yes, ma'am. Thank you for the question. As 
we look back at naval aviation history, 50 years, we have had 
significant changes in our mishap rates and it was because of 
the advent of NATOPS, Naval Aviation Training Operations 
Standardization, as well as an angled flight deck. Those were 
significant impacts to our safety and readiness.
    As we look at something new to come on that would help us 
to be more impactful for the future, I think it needs to be an 
organization that can help us be predictive in the mishaps when 
they think that they are going to happen, to help us be 
predictive in that process. Otherwise, I think we are going to 
have minimal impact in the current safety structures that we 
have. So if it can be something that helps us in a predictive 
manner, then I think it would be very helpful.
    Ms. Bordallo. My next question is also for all of you, and 
I don't think I have the time, but I will continue during 
second round. I understand that 1-day safety standdowns were 
ordered after the recent mishaps so that the service could 
review its safety measures and curb a drastic rise in aviation 
mishaps. So can you confirm you did conduct a 1-day safety 
standdown? And can you please share with the committee what 
benefits your service senior leadership gleaned from the 1-day 
standdown?
    General Nowland. Yes, ma'am, we did conduct it. We are in 
the process with our National Guard units of finishing in it. 
We--the last one we did was in 2009, General Schwartz ordered 
one, the entire Air Force. So we agree with you that, you know, 
we don't do these that often. General Goldfein decided, he had 
a gut feel, that he wanted to do this.
    What we have learned, it goes back--the analysis will be 
complete, but what we come back to is that operational tempo, 
the time to train, readiness. And then the other part of this 
is, from the maintenance side, is predictive analysis on our 
maintenance. As opposed to just doing maintenance on a time, 
can we use information technology to develop predictive 
maintenance, which then gives our maintainers more time to work 
other issues as to just doing maintenance on a time type of----
    Ms. Bordallo. Mr. Chairman, I would like to hear from the 
rest, but I will go for the second round.
    Mr. Wilson. Well, actually, what we will do, this is such 
an important issue, and I am so grateful for Ranking Member 
Bordallo raising this issue, we will proceed. And she actually 
gets extra time. And indeed, a number of our other colleagues 
who were here initially, but your opening statements were so 
thorough that it allowed them to run to another meeting. So 
thank you very much.
    But, of course, Mademoiselle, proceed.
    Ms. Bordallo. Thank you, Mr. Chairman.
    So, again, Lieutenant General Rudder, did the value of the 
1-day standdown exceed the value of a day of training and, you 
know, how do you look at it?
    General Rudder. Yes, Congresswoman. We--the Marine Corps, 
after our second V-22 mishap last fall, we did the same thing, 
we stood down. And although we do safety standdowns, safety 
days on a regular basis to align ourselves back to the 
programmatic side of standardization, safety standardization, 
we did it just to break the chain.
    Aviation sometimes has--when you have a force that is 
operating hard, running hard, sometimes we call a safety 
standdown, but sometimes it can be defined as an OPSPAUSE 
[operations pause], to stop, take a knee, take a deep breath, 
review all the things that are going around from the other 
services, from your operational force, and then begin operating 
again. So we took a day as well.
    And--but also, we had an organization that was operating 
deployed and that organization had two in 1 day, and they shut 
down for about 2 or 3 days to reassess theirselves. Break the 
chain of events, find out, review how you are doing it, the 
environment, has something changed, how is everybody doing. 
Because in deployment, sometimes people get tired and they just 
need to--they just need to take stock on what is going on and 
reset.
    So these standdowns can have many different effects: to 
review how to proceed future programs and how to correct 
yourself, also just to break the chain, assess yourself, look 
in the mirror, and then step off again.
    Ms. Bordallo. Thank you.
    Major General Gayler, on the 1-day standdown.
    General Gayler. Yes, ma'am. Thank you. So most safety 
standdowns or a decision to take a tactical pause to assess a 
very specific component of risk is left to unit-level 
commanders. We truly believe that safety has to become a 
culture. You have to kind of inculcate it into everything you 
do all the time. So we don't not do safety standdowns, but it 
is left to the judgment of an individual commander based on the 
operational tempo.
    There is usefulness in identifying and isolating events to 
mitigate risk, but we think it is, you know, very important for 
us to holistically look at how do you minimize risk, how do you 
balance tactical risk and accidental risk. And part of that 
culture is looking at what we train and doctrine. It is looking 
at how we train in a training environment. It is looking at how 
we develop our leaders to hone their skills to identify, 
mitigate, and supervise to reduce risk. But we also have to 
look at future material solutions, how do you mitigate out risk 
through technology? So we believe firmly that it is a holistic 
approach.
    Thank you.
    Ms. Bordallo. Rear Admiral Kelley.
    Admiral Kelley. Yes, ma'am. And to answer your question, 
yes, we did conduct a safety standdown. We typically do safety 
standdowns around the holidays, and it is an opportunity to 
reflect on safety situations. But in this particular case, 
following the tragic mishap of the F/A-18F in Key West, 
Florida, and a couple of other Class Charlie mishaps that we 
had in the month of April, Vice Admiral Miller and I directed 
that the entire Navy fleet aviation would take a safety 
standdown.
    We put out a P4 message, a ``personal for'' message to the 
leadership in each of the squadrons, listing a number of topics 
that we wanted them to discuss within the command. And I felt 
it important enough upon myself that I cleared my schedule for 
the next 2 days after that message went out and had engagements 
with the commanding officers and their bosses, the wing 
commanders, and talked to them personally about my expectations 
for what I thought they should be doing as the commanding 
officers and understanding the responsibility for them to 
engage with their people and helping them to direct their 
people. And specifically in our case, it is maintenance issues 
that we are focused on.
    So I encouraged them to spend time with the maintenance 
department, spend time with--for example, to take a quality 
assurance rep, somebody that just recently worked on an 
airplane, walk out to that airplane with that quality assurance 
rep, have that rep show them around that airplane, what they 
did on that plane, show the interest, and make sure that they 
understand their value.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Wilson. Thank you very much, Congresswoman Bordallo.
    A question for each of you. Will the 2-year bipartisan 
budget agreement aid you in preventing aviation mishaps? And 
could you provide some examples of how this agreement provides 
needed stability? Beginning with General Nowland.
    General Nowland. Thank you very much. Budget stability is 
really, really needed. And we appreciate the opportunity and 
the plus-up of the budget that you have--Congress has provided 
for us. How it will manifest itself, I think we are putting a 
large percentage of the plus-up into our weapons system 
sustainment, which goes into our depots, as well as our flight 
line maintenance, to build up our spares packages so that our 
maintainers have the parts, which will thus increase aircraft 
availability, which will then increase flying hours and ability 
to train.
    So I think it will have an indirect, absolute indirect 
impact in improving that readiness and that safety, because as 
we have talked about, we can't find a correlation between 
flying hours and accidents, but our gut as aviators tells us 
the more you fly and the more you exercise the jets, good 
things happen out there. It is that situational awareness.
    So we cannot guarantee it, but we are doing everything we 
can. And we are also following our SECDEF's [Secretary of 
Defense's] and our Secretary's direction to make sure every 
dollar we spent is accounted for so we can come back to 
Congress and tell you where we spent it and how it will improve 
our readiness and safety factors.
    Mr. Wilson. Thank you very much, General.
    General Rudder.
    General Rudder. What the past year budget did and certainly 
the RAA [request for additional appropriations] in 2017, it 
allowed us to fully fund the readiness accounts. And when I say 
the readiness accounts, I mean we were able to fully fund our 
spares and begin recouping some of the degradation in our 
spares levels that we went into deficits on for the prior 
years.
    We are also able to fund our depot. They were able to hire 
back a workforce so they could begin getting our aircraft into 
depot and out of depot in a timely manner. Still work to be 
done there, but the depots are making a comeback.
    Also, engineers. For some of our older aircraft, we have a 
lot of in-service repairs that we have to do. We have more 
engineers in our flight line helping the Marines and sailors 
fix their airplanes. For the maintenance Marines, we were able 
to put money into what we call the readiness ticker. So if you 
are a maintenance Marine and you hold a higher level 
qualification, collateral duty inspector or quality assurance 
representative, if you reenlist, you get a bonus. Not 
necessarily reenlist by MOS [military occupational specialty], 
but reenlist for your qualification. And we are able to keep 
about 676 talented Marines in the operational force because of 
this bonus.
    Broadly, I think all our colleagues here would attest to 
more flight hours are better. Things happen in a manner that is 
more--creates more tactically proficient organizations, more 
tactically professional pilots that can react to those 
anomalies that happen on the battlefield or in peacetime every 
day. So the hours--the money that you gave us went to 
maintenance and hours, and we are seeing the fruits of that 
today.
    Mr. Wilson. Thank you very much, General.
    And General Gayler.
    General Gayler. Yes, sir. So, certainly, the predictable 
nature of the funding and the sustained funding certainly is 
very helpful. I mean, I--you know, we look at that readiness 
capability as being manning, equipping, training, and the time. 
A great deal of the omnibus and plus-ups have gone to 
procurement of equipment, which will certainly directly affect 
our ability to train. The same for aviation survivability 
equipment, which is a survivability measure, but also a 
training issue.
    So we do know that the best way to ensure combat-ready 
forces is to provide tough, realistic training at repetitions 
to standard. And any sustained predictable funding certainly 
allows us to do that. So thank you.
    Mr. Wilson. Thank you very much, General.
    We now proceed with Admiral Kelley.
    Admiral Kelley. Thank you, sir. I appreciate the question. 
As my colleagues have alluded to, it does indeed affect our 
readiness, and we appreciate the additional funding, the 
stability that the funding brings for us. And as I described 
early on, it is impacting our readiness and improving our 
readiness, as we have seen in the more--with some of the recent 
numbers for our mission-capable aircraft.
    At the same time, I do have some examples that I can allude 
to with our carriers that--trying to get carriers underway. And 
a good example would be the CR [continuing resolution] this 
past December. Had four aircraft carriers I was trying to get 
underway the week prior to. And understanding that the CR is 
coming to an end, my concern was, are we going to have a budget 
afterwards? Is there going to be a government shutdown? And I 
had to make decisions on what to do with those four aircraft 
carriers.
    A lot of angst, as you might imagine, as we try to make 
decisions on getting them underway, what is the risk in getting 
them underway? And as always, there is things that need to be 
repaired in that process. And so stability will certainly help 
us and make us much more--much better at our jobs and, I think, 
able to be more predictable in our readiness levels.
    Mr. Wilson. Thank you very much, Admiral Kelley.
    We will be concluding with questions by Ranking Member 
Madeleine Bordallo.
    Ms. Bordallo. Thank you again, Mr. Chairman.
    Gentlemen, we often talk about funding flight hours and 
equipment maintenance when we discuss readiness. However, we 
have seen that the culture within each service's aviation 
community is an equally important aspect. So can you just very 
briefly speak to efforts being made to enhance culture at the 
unit level that will improve cohesiveness, retention, 
readiness, and flying safety?
    General Nowland.
    General Nowland. Yes, ma'am. Thank you. Culture, we love 
culture. Culture is what we have identified in our aircrew 
crisis task force. It is key towards continued safe readiness, 
lethal warriors. And it is not a pilot crisis. It is an aircrew 
crisis, so it is all across all our operations.
    We, all the services, use the Army's motto of operational 
risk management, and we have been using that for years, which 
has helped us. We are using the Air Force Safety Assessment 
System, which is bringing forth safety issues so that they can 
be solved. And then all those little things that we are doing 
within the aircrew crisis, such as reducing additional duties, 
providing back--support within the squadron to do some of the 
scheduling duties and some of those other duties. What we call 
the quality of life issues with health care and getting people 
the health care: timeliness, access to care. We have an 
initiative to bring actual--from what we used in special 
operators it is called POTFF [Preservation of the Force and 
Family], Preservation of the Force, where we actually have 
people to help pilots with their backs and their necks so that 
we can keep them on the flight line.
    So all of that creates a culture of trust. And in the end, 
when you fly this close to each other, fly this low, salute 
that crew chief that has given you a high-quality airplane, it 
comes down to trust, and that is what we are trying to build.
    Ms. Bordallo. General Rudder.
    General Rudder. I think a lot of it that we try to stress 
more than anything else in the world is leadership. Leadership 
at all levels, beginning with the commanders. Squadron 
commanders hold the key to the culture that resonates in that 
squadron.
    So we spend a lot of time in our commanders' course trying 
to instill how important it is to lead through example, to 
manage risk as a commander, as well as effectively communicate 
that to your subordinates. Commanders don't communicate, you 
start to find you have multiple cultures inside one 
organization, and that is what we find in failing squadrons. We 
find multiple people doing their own thing inside one 
organization. We stress a lot of that and how to manage risk 
with that, but I think it starts with leadership, it starts 
with that commanding officer.
    Ms. Bordallo. General Gayler.
    General Gayler. Thank you, ma'am. So when we look at 
changing culture, you have to look at really everything you do 
across the force, from doctrine to your organizational design 
to how you train, leader development, and also material things. 
I think we are very well focused on that right now. There are a 
few initiatives that we have underway in every one of those 
areas, very specifically targeting the culture of balanced risk 
between tactical risk and accidental risk. One of those is the 
aviation warfighting initiative where we truly get down to 
knowing and being expert at critical, technical, and tactical 
things.
    I love the word ``trust,'' because when a soldier gets on 
the back of a U.S. Army aircraft, they don't know the training 
you have had. They don't know the experience level you have. 
They just trust that you are well-trained and very good at 
mitigating risk. And I think we are making huge strides in that 
area and doing a very good job there.
    Thank you.
    Ms. Bordallo. Admiral Kelley.
    Admiral Kelley. Yes, ma'am. So naval aviation has three 
programs that are specifically aimed at culture, and they are 
tailored under the type commanders: the Aviation Culture 
Workshop, the Aviation Climate Assessment Survey System 
Program, and then the Aviation Safety Awareness Program. All 
are aimed at commanding officers, giving them a level of 
understanding of their own organizations, and they can be 
requested that these programs be administered by the safety 
center to come in. Or in the case of the last one I mentioned 
there, Aviation Safety Awareness Program, this is an 
opportunity for aircrew, at the end of their flights, where 
they can go online and they can advertise information 
anonymously--I think it was described by General Rudder there--
that provides information for near misses. And this is good in 
allowing us to see what might have happened had somebody not 
done something. So these programs are aware and they certainly 
have a positive impact on the culture.
    Ms. Bordallo. Thank you very much.
    And my last question, Mr. Chairman, that I have: While 
stable and predictable funding are specific actions that this 
committee can help you with, can each of you provide specific 
actions that you and your services have implemented within the 
past 6 to 12 months to reduce the number and the rate of 
aviation mishaps? If you could just----
    General Nowland. Ma'am, I think what we have talked about 
many of them are engineering solutions. And sharing information 
across the T-6 unexplained physiological incidents or episodes 
is a great example of how we have worked with the Navy and 
worked with NASA and across materiel commands to work it. We 
have--working across materiel commands with the Marines on the 
KC-130s, we share information all the time. And I know we are 
working as a DOD to try to get common data systems so that we 
can start to use big data and look at data systems and IT to 
help us do predictive analysis, not looking in the rearview 
mirror or seeing where you are now, but predictive analysis of 
what is going to happen next.
    Ms. Bordallo. Thank you very much, General. I am very 
impressed with--you have mentioned several of you working 
together, the various services, and that is impressive.
    General Rudder.
    General Rudder. The specific examples of the different 
airframes. And we have a very unique mission set where we have 
this tilt rotor, V-22 concept, where we are still trying to 
manage how we investigate that particular airplane and build in 
more credible and sustainable maintenance processes so that the 
readiness levels are up to where it should be. And so the 
readiness that we are doing as far as the funding you have 
given us are allowing us to get ahead of our supply challenges 
with that airplane, which is allowing us to train more.
    A lot of our issues that we have have been really built 
around just sustaining our maintenance cycles so that we can, 
you know, get these airplanes so our pilots can get the hours 
they need. It is not connected to the mishaps, but it is just 
something when pilots are flying more, it becomes a greater 
sustainable model for aviation writ large.
    Some of those things as far as shipboard operations, we put 
some of those new policies in place where we are reducing the 
loads in the airplane, increasing the wind across the deck. We 
are also, for our deployed model, trying to use the AFSOC model 
and mandating that you don't go in the combat environment or 
into a mission unless you have the requisite numbers of reduced 
visibility landings, you have the requisite hours. And we have 
increased number of aircraft over there to make sure we are 
doing that. All of these things come into play to make sure the 
aircrew gets in the airplane, they are ready to fly the mission 
mentally as well as with the aircrew and the mission equipment 
in the airplane.
    Ms. Bordallo. Thank you.
    General Gayler.
    General Gayler. Yes, ma'am. If I may, I will give one 
tactical risk example and one accidental risk example. A 
tactical risk example is, as we look to any future potential 
conflict, we have to constantly assess where we need to adjust 
our training to be best prepared for that. An example, in a 
highly contested peer-to-peer conflict, we know that we have 
certain areas that we need to improve training. So we have 
developed training support packets specifically designed to 
counter a highly contested environment, to include operations 
at much, much lower altitudes where your reaction time and the 
risk goes up significantly, but you have to do that to survive. 
So we have provided that in the tactical risk.
    In the accidental risk area, we do--I am very impressed 
with our combat readiness center's ability to take a near-miss 
incident that we specifically train to leaders at every level. 
We train every colonel, lieutenant colonel, and captain who are 
going into a command position on what we call the near-miss 
incidents. We know that the difference between a Class C and a 
Class A sometimes is seconds and sometimes is inches. And we 
have got to learn from where we have complacency and where we 
have vulnerability, and that is a hugely eye-opening endeavor 
and very well received.
    Ms. Bordallo. Thank you.
    Rear Admiral Kelley.
    Admiral Kelley. Yes, ma'am. As I mentioned earlier, our 
focus area is on our Class Cs and understanding what the 
problems are there. We team with the Navy Center for Analyses 
to find out what the cause or what they thought the cause was. 
And as a result of that, as I mentioned, they determined that 
it was maintenance related, and we determined it was 
maintenance training.
    I think those types of examples where we can get with 
organizations that help us to--and they are outside 
organizations--look inside our organization and give us a 
better understanding of what they see. This being one example 
of many.
    The other, I think that, in looking for the future, and as 
I mentioned earlier, I think predictive analysis is something 
that is important in this business as we try to see how can we 
start to see where the trends are going and stop them before 
the mishaps happen. And our Naval Safety Center is moving 
forward with that as a result of funding that is available from 
this organization. We thank you for that.
    So as they look at hiring staffs, that is going to allow 
them to get deep into analytics, better understand those 
analytics, work with the fleets, work with the other services 
to come back and better understand where the trends are going 
and help us to stop those trends before they become mishaps.
    Ms. Bordallo. Thank you very much.
    And, Mr. Chairman, I want to say thank you. This has been a 
very informative hearing.
    And we appreciate your time and patience while you waited 
for the voting to conclude.
    And, again, I yield back, Mr. Chairman.
    Mr. Wilson. And, Ranking Woman Bordallo, the reason it has 
been informative is because of your interesting questions, 
which are very helpful, okay, to promote safety for our 
military personnel.
    As we conclude, I want to thank all the witnesses again for 
being here today. We appreciate your service to our Nation.
    And, General Nowland, congratulations on your upcoming 
retirement from the Air Force, an amazing 37 years. So we are 
very grateful for your service for American families. And we 
wish you the best for a healthy and happy retirement.
    We are also grateful for Navy Captain promotable Margaret 
Dean, for her monitoring the timing today.
    This hearing is adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             June 21, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 21, 2018

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                <all>
</pre></body></html>
